APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Court of Criminal Appeals of Texas
Denying Petition for Discretionary Review
(February 10, 2021) ............................................ 1a
Opinion of the Court of Appeals for the
Ninth District of Texas (March 29, 2017).......... 2a
Judgment of the Court of Appeals for the
Ninth District of Texas (March 29, 2017)........ 43a
Judgment of Conviction By Jury
(February 10, 2015) .......................................... 45a
Indictment
(January 22, 2015)............................................ 50a
CONSTITUTIONAL AND STATUTORY PROVISIONS
Relevant Constitutional and
Statutory Provisions......................................... 53a

App.1a
ORDER OF THE COURT OF
CRIMINAL APPEALS OF TEXAS DENYING
PETITION FOR DISCRETIONARY REVIEW
(FEBRUARY 10, 2021)
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TX 78711
________________________
2/10/2021
COLLINS, DON WILBURN
COA No. 09-15-00089-CR
Tr. Ct. No. 15-01-00728 CR
PD-0435-20
On this day, the Appellant’s petition for discretionary review has been refused.
Deana Williamson
Clerk
Jerald D. Crow
414 West Phillips
Suite 100
Conroe, TX 77301
* Delivered Via E-Mail *

App.2a
OPINION OF THE COURT OF APPEALS
FOR THE NINTH DISTRICT OF TEXAS
(MARCH 29, 2017)
PUBLISH
IN THE COURT OF APPEALS
NINTH DISTRICT OF TEXAS AT BEAUMONT
________________________
DON WILBURN COLLINS,

Appellant,
v.
THE STATE OF TEXAS,

Appellee.
________________________
No. 09-15-00089-CR
On Appeal from the 359th District Court
Montgomery County, Texas
Trial Cause No. 15-01-00728 CR
Before: KREGER, HORTON, and JOHNSON, JJ.
This case concerns whether an ex post facto violation of the defendant’s constitutional rights occurred
due to the transfer of the defendant’s case from the
juvenile court system to a district court where the
defendant was tried as an adult. The appellant argues
that an ex post facto violation occurred because he
was tried as an adult for a crime he committed in
1998, when he was a thirteen-year-old child. At that

App.3a
time, Texas law required the proceedings against
children fourteen or younger to be handled exclusively
in juvenile courts.1 However, after 1998, the Legislature amended the laws that apply to the transfer of
juvenile proceedings to district court, expanding the
attained age requirements for such transfers in cases
involving children accused of committing murder.
Act of May 27, 1999, 76th Leg., R.S., ch. 1477, § 8,
1999 Tex. Gen. Laws 5067, 5068-69 (current version
at Tex. Fam. Code Ann. § 54.02(j) (West 2014)). The
juvenile court in the defendant’s case transferred the
defendant’s case from juvenile court based on the 1999
amendments, which lowered the age requirements to
include thirteen year olds. The defendant appealed,
complaining the juvenile court erred by relying on
the amendments the Legislature passed after the
date he committed the acts that resulted in the State
charging him with murder.
On appeal, Don Wilburn Collins argues that an
ex post facto violation of his rights occurred when the
juvenile court relied on the amended juvenile transfer
provision in the Juvenile Justice Code to transfer his
case to a district court. See U.S. Const. art. I, § 10, cl.
1 (“No State shall . . . pass any . . . ex post facto Law”);
Tex. Const. art. I, § 16 (“No . . . ex post facto law . . .
shall be made”); Tex. Fam. Code Ann. § 54.02(j) (West
1 Compare the provisions of the Juvenile Justice Code’s discretionary transfer statute, as they existed in 1998, with the provisions
that existed after the Legislature amended the statute in 1999.
Compare Act of May 27, 1995, 74th Leg., R.S., ch. 262, § 34,
1995 Tex. Gen. Laws 2517, 2533-34, with Act of May 27, 1999,
76th Leg., R.S., ch. 1477, § 8, 1999 Tex. Gen. Laws 5067, 506869 (current version at Tex. Fam. Code Ann. § 54.02(j)(2), (j)(4)
(West 2014)).

App.4a
2014) (authorizing a juvenile court to waive its jurisdiction over juveniles who have attained a certain age
depending on the classification of the crime and to
transfer the case from juvenile court to a district
court for criminal proceedings). Collins also argues that
the evidence admitted during the hearing conducted
by the judge of the juvenile court on the State’s motion
to transfer was insufficient to support the court’s
decision to grant the State’s motion and to transfer
his case to a district court where he was tried for
capital murder. See Tex. Fam. Code Ann. § 54.02(j)
(setting out the factors the State must prove before
the judge of a juvenile court is authorized to order
that a juvenile proceeding be transferred to a district
court).2
For the reasons discussed in the opinion, we hold
that the transfer of Collins’ case from juvenile court
to district court did not result in an ex post facto
violation of Collins’ constitutional rights. We further
hold that, given the evidence introduced in the motion
to transfer hearing, the judge of the juvenile court
did not abuse her discretion by granting the motion
to transfer. We overrule Collins’ issues, and we
affirm the trial court’s judgment.
2 The factors that section 54.02(j)(4)(B) required the State to
establish to prove that a juvenile proceeding should be transferred
did not change between the date Collins committed the crime
for which he was tried and the date the judge of the juvenile
court granted the State’s motion to transfer the proceeding from
juvenile court to an appropriate district court. Compare Tex. Fam.
Code Ann. 54.02(j)(4)(B), with Act of May 27, 1995, 74th Leg.,
R.S., ch. 262, § 34, 1995 Tex. Gen. Laws 2517, 2533-34. Therefore,
for convenience, we cite the current version of section 54.02(j)(4)(B),
the discretionary transfer statute.

App.5a
Background
In June 1998, Robert Middleton, an eight-year-old
child, was in the woods near his home when someone
doused him with gasoline and set him on fire. Middleton suffered third-degree burns over 95% of his body.
In late April 2011, Middleton died of skin cancer. Dr.
David Herndon, the doctor who treated Middleton’s
burns, explained that Middleton developed skin cancer
due to complications from the burn injuries Middleton
suffered in 1998.
Middleton was hospitalized for an extended period
that began on the day he was burned. Several weeks
after Middleton was admitted to the hospital, and
while Middleton was under the effects of narcotic
drugs for pain, Middleton’s mother claimed that
Middleton told her that “Don” was the person who
burned him. Based on that information, Bruce Zenor,
a detective with the Montgomery County Sheriff’s
Department, filed an affidavit asking that the judge
of the juvenile court authorize law enforcement officials
to take Collins, a thirteen-year-old child who lived in
Middleton’s neighborhood, into custody. Later that
same day, a juvenile court judge signed an order authorizing the police to take Collins into custody. After
Collins was detained, he was placed in a juvenile
detention facility.
Approximately three weeks after Collins became
a suspect in Middleton’s case, William Pattillo III, an
assistant county attorney for Montgomery County in
charge of juvenile cases, filed a petition in juvenile
court alleging that on June 28, 1998, Collins engaged
in delinquent conduct by assaulting Robert Middleton,
a child, by splashing Middleton with an accelerant

App.6a
and then lighting it with an incendiary device. See
Tex. Penal Code Ann. § 22.02 (West 2011) (aggravated
assault), § 22.04 (West Supp. 2016) (injury to a child).3
In July 1998, the judge presiding over the juvenile
court found that probable cause existed to believe
that Collins had engaged in delinquent conduct.
In January 1999, the judge presiding over the
juvenile court released Collins from juvenile detention.
Upon his release, the juvenile court placed Collins
under the supervision of his uncle, John Horn. In
July 2000, Pattillo filed a motion to nonsuit the
petition charging Collins with delinquent conduct.
The motion recites that the County4 no longer desires
to pursue the case. In the motion, Pattillo asked that
the juvenile court dismiss the case “without prejudice
to the rights of [Montgomery County] to refile[.]” The
3 Although the Legislature amended the aggravated assault and
the injury to a child sections of the Penal Code after Collins was
charged with assaulting Middleton, there are not any changes
to these sections relevant to the issues that Collins raises in his
appeal. Compare Act of May 29, 1993, 73rd Leg., R.S., ch. 900,
§ 1.01, secs. 22.02, 22.04(a), 1993 Tex. Gen. Laws 3586, 361920, 3622-23, with current versions of these sections of the Penal
Code that may be found at Tex. Penal Code Ann. § 22.02 (West
2011) (aggravated assault), § 22.04 (West Supp. 2016) (injury to
a child). For convenience, we cite the current versions of these
statutes.
4 Throughout the opinion, because these pleadings filed in juvenile
court were filed by attorneys who were employed by the
Montgomery County Attorney’s office, we refer to the County
when referring to the State’s pleadings that are relevant to the
proceedings discussed that were filed in that court. After the
case was transferred, the Montgomery County District Attorney’s
office handled of the case; consequently, we refer to the pleadings
filed by the attorneys who were employed by the District
Attorney as pleadings that were filed by the State.

App.7a
judge presiding over the juvenile court granted the
request, and the order provides that the dismissal
was “without prejudice to the rights of [Montgomery
County] to reassert its claim or reinstate its action
against [Collins].”
In late April 2011, Middleton died; his death
certificate indicates that he developed skin cancer as
a consequence of the burn injuries that he suffered in
1998. In May 2011, Montgomery County’s cold case unit
opened a second investigation into Middleton’s case.
In September 2012, when Collins was twenty-seven,
Montgomery County filed a petition against Collins
in juvenile court charging him with murder. In the
petition, the County asked that the judge of the
juvenile court transfer the petition charging Collins
with murder to a district court, where Collins could
be tried as an adult.5 Montgomery County’s 2012
motion to transfer alleged that probable cause existed to believe that Collins was guilty of murdering
Middleton by exposing him to fire. See Tex. Fam.
Code Ann. § 54.02(j)(2)(A) (providing for discretionary
transfers to criminal court in cases that involve
children who were, at the time they committed the
acts resulting in another’s death, at least ten but
5 The petition charging Collins with murder was required to be
filed in juvenile court because Collins was a child when he
committed the acts that led to Middleton’s death. See Tex. Fam.
Code Ann. § 51.04(a) (West Supp. 2016). Under Texas Law,
juvenile courts have exclusive original jurisdiction over felony
cases that involve juveniles who are, when the criminal acts
occurred, at least ten years old but not yet seventeen. See Moon
v. State, 451 S.W.3d 28, 37 (Tex. Crim. App. 2014) (explaining
that the provisions of the Juvenile Justice Code vest original
jurisdiction over felonies in a court designated by each county
as its juvenile court).

App.8a
under seventeen years of age).6 In October 2012, based
on the County’s motion to dismiss its 2012 petition
for discretionary transfer, the judge presiding over
the juvenile court dismissed the petition.
In September 2013, the County filed another
petition alleging that Collins murdered Middleton. In
its 2013 petition, the County once again asked the
judge of the juvenile court to transfer the proceedings
against Collins to a district court. In March 2014, the
judge of the juvenile court conducted a hearing on the
County’s motion to transfer. Twenty-seven witnesses
testified during the hearing, and the testimony the
juvenile court considered in the hearing addresses
whether the County had exercised due diligence in the
manner it handled Collins’ case before Collins turned
eighteen. The evidence also addressed whether the
County could have reasonably proceeded with a case
against Collins for his role in causing Middleton’s
injuries before Collins turned eighteen. At the conclusion of the hearing, the judge of the juvenile court
waived its right to exercise jurisdiction over Collins’
case, found that the County had exercised due diligence
in investigating Middleton’s case before Collins turned
eighteen, found that the County did not develop probable cause to allow it to proceed against Collins before
he turned eighteen, found that it was not practicable
6 Although section 54.02(j)(2)(A) of the Family Code was amended
after the date Collins allegedly injured Middleton, the Legislature
provided that amendments to the discretionary transfer provision
under the statue were to be applied to discretionary transfer
petitions filed after the amendments went into effect. Act of
May 27, 1999, 76th Leg., R.S., ch. 1477, §§ 39(d), 41, 1999 Tex. Gen.
Laws 5067, 5090 (effective September 1, 1999); compare 1999
Tex. Gen. Laws at 5069 (revising section 54.02(j)), with current
version at Tex. Fam. Code Ann. § 54.02(j)(2).

App.9a
for the County to have proceeded against Collins before
he turned eighteen, and found that the State discovered new evidence in Middleton’s case after Collins
turned eighteen. See Act of May 27, 1995, 74th Leg.,
R.S., ch. 262, § 34(j), 1995 Tex. Gen. Laws 2517, 2534
(current version at Tex. Fam. Code Ann. § 54.02(j)).
In May 2014, the State secured an indictment from
a grand jury charging Collins with capital murder.
The indictment alleges that Collins injured Middleton
in 1998 in the course of committing the offense of
kidnapping, obstruction, or retaliation, and that the
injuries Collins inflicted on Middleton resulted in Middleton’s death. See Tex. Penal Code Ann. § 19.03(a)(2)
(West Supp. 2016).7 At the conclusion of the guiltinnocence phase of Collins’ trial, the jury found
Collins guilty of capital murder. In the punishment
phase of the trial, the trial court instructed the jury
that “the punishment for Capital Murder in this case
is confinement in the Institutional Division of the
Texas Department of Criminal Justice for any term
not to exceed forty (40) years.”8 At the conclusion of the
7 Although the capital murder statute was amended several
times after the date Collins committed the alleged offense, none
of the amendments to section 19.03(a)(2) of the Penal Code are
relevant to our analysis of the issues that Collins has raised in
his appeal. Compare Act of May 29, 1993, 73rd Leg., R.S., ch. 900,
§ 19.03(a)(2), 1993 Tex. Gen. Laws 3586, 3613 (amended 2003,
2005, 2011), with current version at Tex. Penal Code Ann. § 19.03
(a)(2) (West Supp. 2016). For convenience, we cite the current
version. Additionally, we note that the State re-indicted Collins
in January 2015, but the amended indictment is not relevant to
the issues that Collins raises in his appeal.
8 We note that a sentence not to exceed forty years’ imprisonment
is the sentence that the Legislature authorized for capital felonies
when the matter is handled entirely as a juvenile proceeding;

App.10a
punishment phase of Collins’ trial, the jury determined
that Collins should serve a forty-year sentence. Subsequently, the judge sentenced Collins to a forty-year
sentence.
Ex Post Facto Challenge
Under the current Juvenile Justice Code, the
discretionary transfer statute allows a juvenile court
judge to transfer a case involving a juvenile to a district
court if the defendant is eighteen years of age or
older at the time of the hearing, and if he was ten
years of age or older when he committed a crime
defined as a capital felony or as murder. Tex. Fam.
Code Ann. § 54.02(j). However, when Collins injured
Middleton in June 1998, the Juvenile Justice Code
required that a child be fourteen or older at the time
the crime was committed before the juvenile court
could transfer a case based on conduct classified as a
capital felony or as murder to district court. See Act
of May 27, 1995, 74th Leg., R.S., ch. 262, § 34, 1995
Tex. Gen. Laws 2517, 2533-34 (amended 1999, 2009,
2011, 2013) (current version at Tex. Fam. Code Ann.
§ 54.02(j)).
Collins was thirteen when he poured gasoline on
Middleton and set him on fire. Middleton lived approximately thirteen years after Collins caused Middleton’s
burns. Collins was never tried for delinquent conduct
before he turned eighteen for his conduct. The parties
i.e., when the case is not transferred to a district court. See Tex.
Fam. Code Ann. § 54.04(d)(3)(A)(i) (West Supp. 2016). However,
under the Penal Code, individuals younger than eighteen at the
time of the offense who are convicted in a district court of
committing a capital felony are subject to a mandatory life
sentence. See Tex. Penal Code Ann. § 12.31(b)(1) (West Supp. 2016).

App.11a
do not dispute that under the laws as they existed in
1998, the Juvenile Justice Code did not authorize a
juvenile court judge to transfer cases involving individuals who, at the time the juvenile injured his victim,
were younger than fourteen. See 1995 Tex. Gen. Laws
at 2534.
In his first issue, Collins contends that the
juvenile court’s decision to rely on the amended version
of the discretionary transfer statute to transfer his
case to district court violated the ex post facto
prohibitions in the Texas and the United States constitutions, which prohibit legislatures from enacting
retroactive laws. See U.S. Const. art. I, § 10, cl.1 (“No
State shall . . . pass any . . . ex post facto Law”); Tex.
Const. art. I, § 16 (“No . . . ex post facto law . . . shall
be made”). In response, the State contends that the
Legislature expressly made the amendments to the
discretionary transfer statute apply to any motion
seeking a transfer if the motion was filed after
September 1, 1999. According to the State, no ex post
facto violation occurred because Collins received a
forty-year sentence, which according to the State is a
sentence that is substantially equivalent to the one
Collins would have received had his case been handled
entirely in a juvenile court.
First, we must determine whether the amended
version of the discretionary transfer statute applies
to the motion for discretionary transfer the County
filed in Collins’ case in 2013. If so, we must then
determine whether by allowing the transfer, Collins
received a punishment more onerous than the one he
would have received in a juvenile court such that the
transfer resulted in a violation of his constitutional

App.12a
rights against the Legislature passing a retroactive
law.
Deciding whether the juvenile court properly
applied the amended version of the discretionary transfer statute to Collins’ case is a straightforward
matter. When the Legislature amended the discretionary transfer statute, it provided that “[t]he change
in law made [to the discretionary transfer sections in
the statute] applies to discretionary transfer proceedings in which the discretionary transfer petition or
motion was filed on [or] after the effective date of this
Act.” See Act of May 27, 1999, 76th Leg., R.S., ch. 1477,
§ 39(d), 1999 Tex. Gen. Laws 5067, 5090 (amended
2009, 2011, 2013) (current version at Tex. Fam. Code
Ann. § 54.02(j)). The County filed the motion that
resulted in the transfer of Collins’ case on September
16, 2013. Given the enabling language in the amended
discretionary transfer statute, we hold the judge of
the juvenile court who presided over Collins’ case
was authorized to apply the amended version of the
discretionary transfer statute to the County’s motion
for discretionary transfer. To the extent Collins argues
that the juvenile court was not authorized by the
Legislature to transfer his case to district court, his
argument is overruled.
Next, we turn to the issue of whether, by amending
the discretionary transfer statute, the Legislature violated the constitutional prohibitions against enacting
ex post facto laws. Generally, the Constitution prohibits
statutes from being applied retroactively in a way
that changes the punishment that applied to a crime
on the date the crime was committed. See Rodriguez
v. State, 93 S.W.3d 60, 66 (Tex. Crim. App. 2002)
(“An ex post facto law . . . changes the punishment and

App.13a
inflicts a greater punishment than the law attached
to a criminal offense when committed.”). Nevertheless,
whether the Legislature’s decision to amend a statute
causes a sufficient change to increase a defendant’s
punishment in a manner that violated the Constitution “is a matter of degree[,]” and “[a] statutory
amendment that creates only the most speculative
and attenuated possibility of producing the prohibited
effect of increasing the measure of punishment does
not violate the Ex Post Facto Clause.” Johnson v. State,
930 S.W.2d 589, 591, 593 (Tex. Crim. App. 1996) (concluding that statute passed after defendant committed
a crime, which permitted an out-of-state sentence to be
used in cumulating the defendant’s sentence, operated
retroactively as a criminal punishment, violating
article I, section 10 of the U.S. Constitution).
According to Collins, by transferring his case to a
district court, the juvenile court increased his potential
punishment by exposing him to a life sentence,
should he be convicted. See Tex. Penal Code Ann.
§ 12.31(a) (West Supp. 2016).9 In arguing that the
amendment to the discretionary transfer statute
made the Juvenile Justice Code more punitive by
allowing his case to be transferred to a district court,
Collins compares the mandatory life sentence faced
by a juvenile convicted of a capital felony in a district
court with the forty-year determinate sentence that
9 Although the section describing the punishment for capital
felonies was amended after 1998, the changes enacted after
1998 are not relevant to our analysis of the issues that Collins
raises in his appeal. Compare Act of May 29, 1993, 73rd Leg.,
R.S., ch. 900, § 1.01, 1993 Tex. Gen. Laws 3586, 3602, with
current version at Tex. Penal Code Ann. § 12.31 (West Supp.
2016). For convenience, we cite the current version.

App.14a
applied to juveniles found to have committed the same
type of conduct he was convicted of having committed
but whose cases were handled entirely within the
juvenile justice system.10 See Act of June 2, 1997,
75th Leg., R.S., ch. 1086, § 11, 1997 Tex. Gen. Laws
4179, 4185 (amended 1999, 2001, 2003, 2007, 2009,
2011, 2013, 2015) (current version at Tex. Fam. Code
Ann. § 54.04(d)(3) (West Supp. 2016)). Collins contends
that a mandatory life sentence, the sentence that
applies to juveniles convicted in district court of
committing capital murder, is the only sentence the
Legislature authorized for juveniles convicted in a
district court of committing a capital murder. Nonetheless, the district court did not impose a mandatory
life sentence on Collins; instead, by instructing the
jury that it could sentence Collins to no more than
forty years in prison, the court effectively limited
Collins’ sentence to a term of no more than forty
years. See Tex. Penal Code Ann. § 12.31(a)(1)
(providing for mandatory life sentence in cases of
capital felonies committed by individuals not yet
10 We use the term “determinate sentence” in the context of
proceedings involving children accused of capital murder whose
cases are adjudicated in juvenile court that result in findings
indicating the child committed delinquent conduct. See Tex.
Fam. Code Ann. § 53.045 (West Supp. 2016) (Offenses Eligible for
Determinate Sentence); see also Tex. Fam. Code Ann. § 54.04011
(c)(2) (West 2014) (addressing post-adjudication commitments
to secure correctional facilities in cases involving children who
commit crimes including capital murder). In a case involving
conduct like the conduct at issue here, the child is exposed to a
sentence of no more than forty years, some portions of which
are likely served in a facility operated by the Juvenile Justice
Department with the possibility that the juvenile may, upon
reaching an appropriate age, be transferred to a facility
operated by the Department of Criminal Justice. See id.

App.15a
eighteen).11 However, Collins now argues that the
trial court was not authorized to impose a punishment
that differs from that proscribed in section 12.31(a)(1)
of the Penal Code, which applies to juveniles convicted
of committing capital murders. Id.
In response to these arguments, the State focuses
on the sentence Collins received, and it disregards
the sentence he might have received had the court
given him a life sentence. According to the State, the
discretionary transfer statute is merely a procedural
change as the statute was applied in Collins’ case given
that he did not receive a life sentence. The State
suggests Collins did not suffer an increased punishment, given that he received a sentence substantially
equivalent to the sentence he was eligible to receive
had his case been handled entirely within the juvenile
system.12 The State concludes the forty-year sentence
that Collins received is substantially the same as the
determinate sentence that Collins would have received
had his case been tried entirely within the juvenile
justice system. See Tex. Fam. Code Ann. § 53.045
(West Supp. 2016); § 54.04((d)(3)(A).
Having described the parties’ arguments, we
turn to the merits of Collins’ argument that an ex post
facto violation occurred. Several factors guide a court
in evaluating whether a statute operates retroactively
in a way that is constitutionally prohibited. One factor
11 We note that Collins did not object to the instruction the
district court gave the jury limiting his sentence to a term of no
more than forty years.
12 See Act of May 27, 1999, 76th Leg., R.S., ch. 1477, § 41, 1999
Tex. Gen. Laws 5067, 5090 (indicating the Act went into effect
on September 1, 1999).

App.16a
courts consider is “‘whether a statute assigns more
disadvantageous criminal or penal consequences to an
act than did the law in place when the act occurred,
[and] it is irrelevant whether the statutory change
touches any vested rights.’” Grimes v. State, 807 S.W.2d
582, 587 (Tex. Crim. App. 1991) (quoting Weaver v.
Graham, 450 U.S. 24, 29 n.13 (1981)). Courts also consider whether the change to the statute was procedural
or substantive, indicating that “[l]aws altering procedure do not generally fall within the prohibition.”
Ibarra v. State, 11 S.W.3d 189, 192 (Tex. Crim. App.
1999). Other factors that can be considered in evaluating the retroactive effect of a statute include:
●

“whether the sanction involves an affirmative disability or restraint;”

●

“whether it has traditionally been
regarded as a punishment;”

●

“whether it comes into play only on a
finding of scienter;”

●

“whether its operation will promote the
traditional aims of punishment—retribution and deterrence;”

●

“whether the behavior to which it
applies is already a crime;”

●

“whether an alternative purpose to which
it may rationally be connected is assignable to it;” and

●

“whether it appears excessive in relation to the alternative purpose assigned.”

Rodriguez, 93 S.W.3d at 68 (citing Kennedy v. MendozaMartinez, 372 U.S. 144, 168-69 (1963)). In his appeal,

App.17a
Collins does not complain that the discretionary
transfer statute always operates in an unconstitutional
manner; instead, his complaint is that the statute
operated unconstitutionally as it was applied to him.
When a party makes an “as applied” challenge to a
statute, the essence of the challenge asserts that the
statute, although generally constitutional, operates
unconstitutionally given the challenging party’s
particular circumstance. See In re Commitment of
Fisher, 164 S.W.3d 637, 656 n.17 (Tex. 2005) (citing
Tex. Boll Weevil Eradication Found., Inc. v. Lewellen,
952 S.W.2d 454, 461 n.5 (Tex. 1997)).
We have located no cases challenging the amended
discretionary transfer statute on the basis that it
operates retroactively in a way the results in an ex
post facto violation of the law. See Tex. Fam. Code
Ann. § 54.02(j). However, the district court obviously
recognized the potential for an ex post facto violation
had it exposed Collins to a mandatory life sentence,
given that he was not eligible for a penalty of that
severity in 1998. Therefore, in determining if an ex
post facto violation occurred, we must decide whether
the district court was authorized to instruct the jury
that Collins could be given a sentence of no more
than forty years in evaluating whether the transfer
of his case to district resulted in a constitutionally
prohibited increase in his punishment. See Act of
June 2, 1997, 75th Leg., R.S., ch. 1086, § 11, 1997
Tex. Gen. Laws 4179, 4185 (current version at Tex.
Fam. Code Ann. § 54.04(d)(3)(A)(i-ii)).
In arguing that an ex post facto violation occurred,
Collins limits his argument to the prospect that he
faced a life sentence. For example, Collins points to
no evidence and presents no argument that serving a

App.18a
sentence entirely in the custody of the Texas
Department of Criminal Justice is more onerous
than a sentence serviced partially in the custody of
the Juvenile Justice Department and partially in the
custody of the Texas Department of Criminal Justice.
Additionally, he does not argue that he was not
eligible for a forty-year determinate sentence under
the Juvenile Justice Code for the acts he committed
in 1998, whether those acts are classified as either a
first-degree or as a capital felony. See Act of June 2,
1997, 75th Leg., R.S., ch. 1086, § 11, 1997 Tex. Gen.
Laws 4179, 4185 (current version at Tex. Fam. Code
Ann. § 54.04(d)(3)(A)(i-ii)). Based on the arguments
before us in the appeal, we conclude that following
his trial in district court, Collins received a punishment
of substantially the same length as the punishment
he was eligible to receive under the laws that applied
to him in 1998 had his case been tried entirely in the
juvenile system. See Rodriguez, 93 S.W.3d at 79;
Grimes, 807 S.W.2d at 587.
Collins premises his ex post facto arguments on
the prospect that he faced a mandatory life sentence,
but that was not the sentence that was applied to
him following his trial. Collins suggests that because
the statute proscribing a mandatory life sentence for
juveniles convicted of capital murder indicates that
is the sentence that “shall” be applied to juveniles in
district courts who are convicted of committing capital
felonies, the trial court was not authorized to apply
any other sentence. See Tex. Penal Code Ann.
§ 12.31(a)(1). While Collins makes a strong argument,
we disagree with Collins’ argument that a forty-year
sentence under the circumstances in Collins’ case is a
legislatively unauthorized sentence.

App.19a
Generally, “[a] statutory amendment that creates
only the most speculative and attenuated possibility
of producing the prohibited effect of increasing the
measure of punishment does not violate the Ex Post
Facto Clause.” Johnson, 930 S.W.2d at 591. While
section 12.31 of the Penal Code provides that juveniles
convicted in district courts in cases involving capital
crimes “shall be punished . . . for life[,]” the amended
discretionary transfer statute does describe the penalty
the Legislature intended that courts apply to the
children whose cases were, for the first time, now
subject being transferred based on the Legislature’s
decision to lower the age range of children whose
cases could be transferred. Generally, courts are not
permitted to presume that when the Legislature
enacts or amends a law, the Legislature intended to
create an ex post facto violation. See Tex. Gov’t Code
Ann. § 311.021(1) (West 2013) (“In enacting a statute,
it is presumed that . . . compliance with the constitutions of this state and the United States is
intended[.]”).
In this case, the district court properly recognized
that the Legislature likely did not intend to create an
ex post facto violation of law by subjecting some
cases that were for the first time subject to being
transferred to district court to punishments in district
court that were longer than the punishment available
in the case based on the date the child committed the
crime. Id. By looking to the punishments that the
Legislature authorized for thirteen-year-old children
who committed first-degree or capital felonies in
1998, the district court harmonized the discretionary
transfer statute in a manner that avoided any ex post
facto violation by applying a legislatively authorized

App.20a
sentence of forty years to a crime that Collins committed in 1998 when he was a thirteen-year-old child. In
our opinion, the district court properly looked to the
punishments authorized for children who, in 1998,
were younger than fourteen in determining the
legislatively authorized sentence to apply in Collins’
case. See Act of June 2, 1997, 75th Leg., R.S., ch. 1086,
§ 11, 1997 Tex. Gen. Laws 4179, 4185 (current version
at Tex. Fam. Code Ann. § 54.04(d)(3)(A)(i-ii)).
The provisions the Legislature provided to aid
courts in construing the Penal Code reinforce the
view that the trial court was authorized to select a
forty-year sentence under the circumstances in Collins’
case. The Penal Code provides that its provisions are
to be construed “according to the fair import of their
terms, to promote justice and effect the objectives of
the code.” Tex. Penal Code Ann. § 1.05 (West 2011).
While section 12.31(a)(1) of the Penal Code indicates
that a court shall apply a mandatory life sentence to
a juvenile convicted of a capital felony, the district
court was not authorized to apply that punishment
in Collins’ case because doing so would result in an
ex post facto violation of the law. See Tex. Penal
Code Ann. 12.31(a)(1).
We are also not persuaded that the Legislature’s
decision to use the word “shall” in section 12.31(a)(1)
indicates that the Legislature intended courts to apply
a life sentence where such a sentence would violate
the constitution. Generally, when the Legislature uses
the word “shall” in a statute, it is understood that
the Legislature intended to “impose a duty.” Tex.
Gov’t Code Ann. § 311.016(2) (West 2013). Additionally,
courts construing the word “shall” in statutes generally
determine that the term was intended to create a

App.21a
mandatory duty. See Crosstex Energy Servs. L.P. v. Pro
Plus, Inc., 430 S.W.3d 384, 392 (Tex. 2014). However,
courts sometimes give the term “shall” a directory
meaning, construing it so that it does not indicate the
Legislature intended to create a mandatory duty. See
Barshop v. Medina Cty. Underground Water Conservation Dist., 925 S.W.2d 618, 629 (Tex. 1996). Construing
“shall” as directory rather than mandatory is appropriate where construing it as having been intended
to be directory is more consistent with the Legislature’s
intent. Id.
The stated purpose of the Penal Code is to “establish a system of prohibitions, penalties, and correctional
measures to deal with conduct that unjustifiably and
inexcusably causes or threatens harm to those individuals or public interests for which state protection is
appropriate.” Tex. Penal Code Ann. § 1.02 (West
2011). In Collins’ case, the construction that Collins
proposes we apply to section 12.31(a)(1) would allow
a small but definable group13 of juveniles to avoid
being prosecuted for murder. Given the significant
interest the State has in ensuring public safety and
order, Collins’ construction of the Penal Code would,
if adopted, conflict with the Code’s stated purpose by
allowing some juveniles to escape being punished
even though they were guilty of murder. See Faust v.
13 The small but definable group consists of those children who
committed a capital felony or murder prior to the date the amended
statute went into effect, September 1, 1999, and who were ten
or older but younger than fourteen at the time the offense was
committed, and who turned eighteen before their victim died.
See Act of May 27, 1999, 76th Leg., R.S., ch. 1477, §§ 8(j), 39(d),
40, 1999 Tex. Gen. Laws 5067, 5069, 5090 (current version at
Tex. Fam. Code Ann. § 54.02(j)). There is no evidence in the record
that allows us to determine the potential size of this group.

App.22a

State, 491 S.W.3d 733, 748 (Tex. Crim. App. 2015).
We conclude that a rule of strict construction is not
required under the rules of construction that apply to
the Penal Code. See Tex. Penal Code Ann. § 1.05(a)
(West 2011) (“The rule that a penal statute is to be
strictly construed does not apply to this code. The
provisions of this code shall be construed according
to the fair import of their terms, to promote justice
and effect the objectives of the code.”); Tex. Gov’t Code
Ann. § 311.002(1) (West 2013) (providing that the
rules in the Code Construction Act apply to each
amendment beginning with those made by the 60th
Legislature).
In our opinion, adopting a directory rather than
a mandatory meaning for the word “shall,” as that term
was used in section 12.31 of the Penal Code, gives
section 12.31 a meaning that can be applied that
avoids creating an ex post facto violation of Collins’
state and federal constitutional rights. See Ex part
Kuester, 21 S.W.3d 264, 268 (Tex. Crim. App. 2000)
(declining to adopt a proposed construction of a
section of the Code of Criminal Procedure when that
construction would place the section in conflict with
other laws); Boykin v. State, 818 S.W.2d 782, 785 (Tex.
Crim. App. 1991) (noting that it is constitutionally
permissible for a court to consider “extratextual
factors” if adopting an interpretation based on the
plain language of a statute would lead to an absurd
result). Generally, “‘every reasonable construction must
be resorted to in order to save a statute from
unconstitutionality.’” Ex parte Flake, 149 S.W. 146
(Tex. Crim. App. 1911) (quoting Hooper v. California,
155 U.S. 648 (1895)). In concluding that the Legislature
did not intend to increase a juvenile’s punishment

App.23a
under the circumstances like those in Collins’ case,
we have considered not only the meaning of the words
in section 12.31(a)(1) of the Penal Code, but also all
of the words in the Penal Code, the nature and object
of the Penal Code, and the consequences that would
follow from the constructions the parties propose for
the statute. See Albertson’s, Inc. v. Sinclair, 984 S.W.2d
958, 961 (Tex. 1999); Chisholm v. Beverly Mills, 287
S.W.2d 943, 945 (Tex. 1956). Because the Penal Code
is silent about the consequences that result from a
court’s failure to comply with the duty Collins argues
was mandatory, we have also looked to the purposes
of the Penal Code in determining whether the term
“shall,” as it is used in section 12.31(a)(1), should be
given a mandatory or a directory meaning. See Sinclair,
984 S.W.2d at 961; Schepps v. Presbyterian Hosp. of
Dallas, 652 S.W.2d 934, 938 (Tex. 1983); Chisholm,
287 S.W.2d at 945.
In summary, we conclude that the juvenile court
was authorized to apply the amended discretionary
transfer statute and transfer Collins’ case from juvenile
court to a district court. See Act of May 27, 1999,
76th Leg., R.S., ch. 1477, §§ 39(d), 40, 1999 Tex. Gen.
Laws 5067, 5090 (providing that the changes the
Legislature made to the discretionary transfer statute
in 1999 apply to discretionary transfer motions filed
on or after the effective date of the Act, which was
September 1, 1999). Further, we conclude the Legislature did not intend that a mandatory life sentence
be applied to cases involving juveniles who were
older than ten but younger than fourteen at the time
the crime was committed for crimes committed before
September 1, 1999, the date the amendments to the
discretionary transfer statute became effective. See id.

App.24a
Finally, we conclude that the forty-year sentence that
Collins received was an authorized sentence because
that was the maximum sentence that a juvenile,
under the age of fourteen and under the facts of this
crime, would have been subject to receiving in 1998
when Collins injured Middleton. As applied to Collins,
we hold that the amended discretionary transfer
statute did not violate Collins’ constitutional rights
against the retroactive application of a statute. See
Grimes, 807 S.W.2d at 587. We overrule issue one.
Challenge to Transfer
In his second issue, Collins argues that the
evidence admitted during his discretionary transfer
hearing is insufficient to support several of the
findings that the judge of the juvenile court made to
support her ruling granting the County’s motion to
transfer. According to Collins, the evidence before the
court in the hearing does not support the court’s findings (1) that Montgomery County exercised diligence
in prosecuting Collins before he turned eighteen; (2)
that it was not practicable for Montgomery County to
proceed with a case in the juvenile court system
against Collins; (3) that probable cause did not exist
to proceed with a case against Collins when he was a
juvenile; and (4) that Montgomery County discovered
new evidence about Collins’ involvement in Middleton’s
injury after Collins turned eighteen. See Tex. Fam.
Code Ann. § 54.02(j)(4)(B) (identifying the factors
relevant to deciding a motion to transfer that Collins
is challenging in this appeal).14 In response, the
14 Although the Legislature amended some of the provisions
that are in section 54.02 of the Family Code after Middleton
was injured, the language in subsection 54.02(j)(4)(B) is identical

App.25a
State argues that the evidence admitted during the
hearing on the motion allowed the trial court to
rationally conclude that it should grant the County’s
motion and transfer the case to district court. Id.
Before a juvenile court judge may transfer a
juvenile proceeding to a district court, the State must
satisfy the requirements in section 54.02(j) of the
Texas Family Code. Tex. Fam. Code Ann. § 54.02(j).
Section 54.02(j) provides:
(j) The juvenile court may waive its exclusive
original jurisdiction and transfer a person to the
appropriate district court or criminal district court
for criminal proceedings if:
(1) the person is 18 years of age or older;
(2) the person was:
(A) 10 years of age or older and under 17
years of age at the time the person is
alleged to have committed a capital
felony or an offense under Section 19.02,
Penal Code;
(B) 14 years of age or older and under 17
years of age at the time the person is
alleged to have committed an aggravated
controlled substance felony or a felony
of the first degree other than an offense
under Section 19.02, Penal Code; or
to the language that existed in that subsection when Middleton
was injured. Compare Tex. Fam. Code Ann. § 54.02(j)(4)(B), with
Act of May 27, 1995, 74th Leg., R.S., ch. 262, § 34, 1995 Tex.
Gen. Laws 2517, 2533-34 (amended 1999, 2009, 2011, 2013).
Therefore, we cite the current version when referencing section
54.02(j)(4)(B) of the Family Code.

App.26a
(C) 15 years of age or older and under 17
years of age at the time the person is
alleged to have committed a felony of
the second or third degree or a state
jail felony;
(3) no adjudication concerning the alleged offense
has been made or no adjudication hearing
concerning the offense has been conducted;
(4) the juvenile court finds from a preponderance
of the evidence that:
(A) for a reason beyond the control of the
state it was not practicable to proceed
in juvenile court before the 18th birthday
of the person; or
(B) after due diligence of the state it was not
practicable to proceed in juvenile court
before the 18th birthday of the person
because:
(i)

the state did not have probable
cause to proceed in juvenile court
and new evidence has been found
since the 18th birthday of the
person;

(ii) the person could not be found; or
(iii) a previous transfer order was
reversed by an appellate court or
set aside by a district court; and

App.27a
(5) the juvenile court determines that there
is probable cause to believe that the child
before the court committed the offense
alleged.

Id.
Collins’ appeal concerns only the sufficiency of
the evidence supporting the factors that are listed in
subsection 54.02(j)(4)(B) of the Juvenile Justice Code.
See id. § 54.02(j)(4)(B).15 In reviewing a challenge to
the sufficiency of evidence levelled at an order granting
a motion for discretionary transfer, we view the
evidence in the light most favorable to the findings
made by the judge of the juvenile court, disregarding
evidence contrary to the juvenile judge’s findings
15 The entire findings in the order transferring Collins’ case
recite:
1.

[Collins] is a person 18 years of age or older.

2.

[Collins] was 10 years of age or older and under 17
years of age at the time Respondent is alleged to
have committed an offense under Section 19.02 of
the Texas Penal Code.

3.

No adjudication concerning the alleged offense has
previously been made and no adjudication hearing
concerning the alleged offense has previously been
conducted.

4.

After exercising due diligence, it was not practicable
for the [County] to proceed in Juvenile Court before
[Collins’] 18th birthday because the [County] did not
have probable cause to proceed in Juvenile Court
and new evidence has been found since the 18th
birthday of the [Collins].

5.

There is probable cause to believe that [Collins] committed the offense alleged in the [County’s] Petition
for Discretionary Transfer.

App.28a
unless a reasonable judge could not have rejected that
evidence. See id. § 54.02(j)(4); Moon v. State, 451
S.W.3d 28, 47 (Tex. Crim. App. 2014) (limiting an
appellate court’s review to the facts the judge of the
juvenile court found the State proved in the hearing
in the order of transfer); In re D.R.B., No. 01-1600442-CV, 2016 Tex. App. LEXIS 12472, *11 (Tex.
App.—Houston [1st Dist.] 2016, no pet.). Because the
judge’s ruling on a motion for discretionary transfer
uses a preponderance of the evidence standard, which
is a civil standard of proof, we use the standard of
review that we utilize in civil cases to review the
court’s findings. See Moon, 451 S.W.3d at 45 (“Facts
which must be proven by a preponderance of the
evidence are ordinarily susceptible to appellate review
for factual sufficiency.”); Matlock v. State, 392 S.W.3d
662, 667 (Tex. Crim. App. 2013) (explaining that
when a preponderance of the evidence standard applies
to an issue in a criminal case, the appeals court uses
civil appellate standards in reviewing any challenged
rulings).
To determine whether the evidence is factually
sufficient to support the findings in a civil case, we
are required to weigh all the evidence that was
before the lower court in the hearing that resulted in
the ruling that is being challenged, regardless of
whether the evidence was favorable or unfavorable to
the lower court’s finding. See Dow Chem. Co. v.
Francis, 46 S.W.3d 237, 242 (Tex. 2001). On appeal,
the party challenging the ruling must demonstrate
that the judge’s findings were “clearly wrong and
unjust,” given the evidence that was before the court
during the hearing. Cain v. Bain, 709 S.W.2d 175,
176 (Tex. 1986) (citations omitted). If we determine

App.29a
that the lower court’s findings are supported by
legally and factually sufficient evidence, we then review
the lower court’s decision to grant the County’s motion
to transfer under an abuse-of-discretion standard.
Moon, 451 S.W.3d at 47; D.R.B., 2016 Tex. App. LEXIS
at *12. In applying the abuse-of-discretion standard,
we conduct our own analysis of the evidence, and
determine whether the juvenile court acted without
reference to the guiding rules or principles such that
its decision to transfer the case was “essentially
arbitrary, given the evidence upon which it was
based.” Moon, 451 S.W.3d at 47.
With these standards in mind, we turn to
Collins’ claim that the evidence admitted during the
hearing on the County’s motion to transfer his case
was insufficient to allow the court to grant the
motion. According to Collins, the County failed to
establish that it exercised due diligence in conducting
the investigation of Collins’ case before he turned
eighteen. The Juvenile Justice Code does not define
the term “due diligence,” but commonly, the term is
defined to mean “[t]he diligence reasonably expected
from, and ordinarily exercised by, a person who
seeks to satisfy a legal requirement or to discharge
an obligation.” See Tex. Fam. Code Ann. § 51.02 (West
Supp. 2016) (Definitions); BLACK’S LAW DICTIONARY 523 (9th ed. 2009). When the Legislature does
not specifically define a term used in a statute, we
apply the definitions that are found in dictionaries to
give words their commonly used meanings. See Tex.
Gov’t Code Ann. § 311.011(a) (West 2013) (“Words
and phrases shall be read in context and construed
according to the rules of grammar and common
usage.”); see also Parker v. State, 985 S.W.2d 460,

App.30a
464 (Tex. Crim. App. 1999) (giving words their plain
meaning when a statute does not define the words
used).
In his brief, Collins relies on delays that include
delays after he turned eighteen in arguing that the
juvenile court’s findings are clearly wrong. Therefore,
we must decide whether delays after Collins turned
eighteen are relevant in evaluating the juvenile court’s
findings. We conclude that delays after Collins turned
eighteen are not relevant in reviewing the juvenile
court’s findings with respect to the County’s diligence.
Under section 54.02(j)(4) of the Juvenile Justice Code,
the evidence must explain why there were delays in
bringing a case against a juvenile before the juvenile
turned eighteen. See Tex. Fam. Code Ann. § 54.02(j)(4);
see also Moore v. State, No. PD-1634-14, 2017 Tex.
Crim. App. LEXIS 167, *7 (Tex. Crim. App. Feb. 8,
2017) (noting that the period relevant to section 54.02
(j)(4)(A) concerned any delays that occurred before
the juvenile’s eighteenth birthday). Section 54.02(j)(4)
does not require that the State explain delays that
occurred after the juvenile turned eighteen. See Tex.
Fam. Code Ann. § 54.02(j)(4). Collins turned eighteen
on April 4, 2003, so we review the evidence relevant
to the County’s explanation for any delays in bringing
a case against Collins that occurred before April 4,
2003. See Tex. Fam. Code Ann. § 54.02(j)(4)(B).
Twenty-seven witnesses testified during the hearing the juvenile court judge conducted on the County’s
motion to transfer. The evidence in the hearing shows
that the County began its initial investigation into
Middleton’s injuries the day his injury occurred, and
that the initial investigation ended in 2000, when the
County dismissed the petition it filed alleging that

App.31a
Collins had engaged in delinquent conduct. The testimony regarding the investigation shows that Detective
Zenor was the individual who was in charge of the
investigation. Four days after Middleton was injured,
and based on the evidence developed at that time,
Detective Zenor filed an affidavit with the juvenile
court asking the juvenile court to authorize Collins’
detention. On July 24, 1998, William Pattillo III, an
attorney employed by the Montgomery County Attorney’s office, charged Collins with engaging in delinquent
conduct in a petition filed in juvenile court alleging
that Collins intentionally, knowingly, or recklessly
caused Middleton’s injuries. Nearly two years later,
on July 18, 2000, Pattillo asked the court to nonsuit
the petition, and the motion for nonsuit was granted.
In its motion for nonsuit, the County alleged that it
“no longer desire[d] to pursue its cause of action
against [Collins] in this cause, at this time.”
The testimony admitted in the hearing includes
Pattillo’s explanation about why he decided to ask
the juvenile court in July 2000 to dismiss the petition.
Pattillo’s testimony reflects that as of July 2000, he
did not believe the evidence gathered by the police
was sufficient to establish that Collins was the person who probably caused Middleton’s injuries, which
allowed the juvenile court to infer that Pattillo did
not believe that he had sufficient evidence to proceed
with a case against Collins in juvenile court. According
to Pattillo, the evidence that had been developed
when the County’s petition was dismissed was not
sufficiently reliable to establish that Collins was the
person who caused Middleton’s injury, even though
he acknowledged that Collins had given the police a
statement indicating that he had thrown gasoline

App.32a
toward a tree, that the gasoline struck Middleton, and
that he was present when another juvenile ignited
the gasoline with a match. According to Pattillo, the
written and oral statements that Collins gave police
were unreliable because the statements were not, in
his opinion, admissible had the case gone to trial.16
According to Pattillo, there were a number of problems
regarding the admissibility of Collins’ statements.
According to Pattillo, there were other problems
with the reliability of the statement to prove that
Collins was the person who injured Middleton. Collins’
statements about the incident portrayed Middleton’s
injury as accidental, which Pattillo indicated described
a scenario that he thought was inconsistent with
claiming that Collins should be found to have engaged
in delinquent conduct based on the role Collins
admitted in his statements to having played in the
incident. Additionally, Pattillo indicated that Collins’
written statement was not in Collins’ own writing;
instead, the written statement that police obtained
from Collins was written by the interrogating officer.
Pattillo also expressed concern about the length of
time that it took the police to obtain the information
from Collins, indicating that Collins interview with
the police lasted approximately six hours before
Collins gave police a written account of his role in the
16 Prior to Collins’ trial, Collins filed a motion to suppress the
written and recorded statements that police obtained from him.
In his motion, Collins argued that his oral and written statements
were obtained in violation of various requirements found in the
Family Code. The district court agreed with Collins’ arguments,
ruled the statements were inadmissible, and the statements
that Collins gave the police were not admitted during the trial
that took place in district court.

App.33a
incident. Finally, Pattillo indicated that except for the
statements, the County had no physical evidence to
tie Collins to the scene of the crime, even though the
County had gone to great lengths to obtain such
evidence over the course of its investigation.
Pattillo’s concern about the strength of the
County’s case against Collins was not limited to
problems that he believed existed regarding Collins’
oral and written statements and the lack of any
physical evidence tying Collins to the scene. Pattillo
also explained that on the day Middleton was injured,
Middleton told others that a boy named Rex was the
person who had injured him. Pattillo indicated that
Middleton’s statement identifying Rex as the person
who injured him complicated the prospects of convincing a jury that Collins was the person who injured
Middleton. Pattillo also explained that Middleton was
heavily medicated when he first mentioned Collins to
his mother, and that Middleton first mentioned
Collins to his mother in response to a question she
posed suggesting to Middleton that Collins was the
person who had injured him.
Pattillo also addressed why he thought that various statements that Collins reportedly made to other
juveniles housed with him while he was being detained
in a Montgomery County juvenile facility would prove
unreliable to show that Collins engaged in delinquent
conduct. The testimony about the statements showed
that several juveniles gave Montgomery County authorities written statements concerning statements Collins
made to them about Middleton. The statements
generally indicate that Collins told these juveniles
that he and another juvenile caused Middleton’s burns.
According to Pattillo, the statements that Montgomery

App.34a
County officials obtained from these juveniles would
not prove very reliable because various details in the
statement about how Middleton was injured were
inconsistent with other evidence that police obtained
during their investigation showing how Middleton’s
injuries occurred. Based on Pattillo’s testimony, the
juvenile court could reasonably infer that when Pattillo
asked to dismiss the petition charging Collins with
delinquent conduct in July 2000, he did so because he
did not believe he had sufficiently reliable evidence to
proceed with a case where he would be required to
prove that Collins had engaged in delinquent conduct.
The evidence admitted during the hearing also
addresses why Montgomery County did not file a
petition charging Collins with delinquent conduct
before he turned eighteen. For example, during the
hearing, Pattillo explained that he served as the
chief juvenile prosecutor for the County Attorney’s
office until he left his job with the County in April
2004, which is after Collins turned eighteen. According
to Pattillo, between the time the County moved to
dismiss the petition in July 2000 and the date he left
his job as chief juvenile prosecutor, “no new evidence
was brought to the County Attorney’s office” to show
that Collins was guilty of engaging in delinquent conduct with respect to his role in causing Middleton’s
injuries. Pattillo also testified that when he resigned
as chief juvenile prosecutor, no witnesses had come
forward claiming that Collins injured Middleton to
prevent Middleton from telling others that Collins had
sexually assaulted him. From the evidence admitted
during the hearing, the juvenile court could reasonably
infer that Montgomery County’s delays in bringing a

App.35a
case against Collins before he turned eighteen were
due to the County’s failure to develop sufficient
evidence of probable cause to proceed with a case in
which it would be required to prove that Collins was
guilty of having engaged in delinquent conduct.
Pattillo was the only witness asked during the
hearing on the motion to transfer about whether the
police conducted a diligent investigation of Middleton’s
case. According to Pattillo, law enforcement officers
worked diligently on Middleton’s case, the investigation
that they conducted included a thorough search of
the crime scene, the use of dive teams and aircraft in
an effort to locate physical evidence that might relate
to the crime, and the use of forensic investigators
and employees of the Fire Marshall’s office to evaluate
the evidence that was recovered from the scene.
None of the police officers or other witnesses who
testified during the hearing were asked during the
hearing to address whether the County, before Collins
turned eighteen, had obtained sufficient evidence in
its investigation to establish probable cause to proceed
with a case charging Collins with knowingly or
intentionally causing Middleton’s injuries.
We have already explained that the Juvenile
Justice Code does not define the term “due diligence.”
The Juvenile Justice Code also does not define the
term “probable cause to procced,” which is the phrase
used in section 54.02(j)(4)(B)(i) of the Family Code.
See Tex. Fam. Code Ann. § 54.02(j)(4)(B)(i) (indicating
that the County must prove in the motion to transfer
hearing among other things that it did not have
“probable cause to proceed” in juvenile court before
the juvenile turned eighteen); id., § 51.02 (defining
various words used in the Juvenile Justice Code not

App.36a
including “probable cause to proceed”). Moreover, the
shorter phrase, “probable cause,” is also not defined by
Texas law regarding the degree to which a probability
must be established to demonstrate that the State
has sufficient evidence to charge someone with a crime.
See State v. Duarte, 389 S.W.3d 349, 354 (Tex. Crim.
App. 2012). In absence of statutory definitions for
these terms, some courts have indicated that in the
context of the Juvenile Justice Code, the term “[d]ue
diligence requires the State to ‘move ahead’ or ‘reasonably explain delays.’” In re B.C.B., No. 05-16-00207CV, 2016 Tex. App. LEXIS 6043, at *13 (Tex. App.—
Dallas June 7, 2016, pet. denied) (quoting In re
B.R.H., 426 S.W.3d 163, 168 (Tex. App.—Houston
[1st Dist.] 2012, no pet.)).
In large part, the parties’ dispute regarding the
juvenile court’s findings regarding whether the County
exercised due diligence and had probable cause to
proceed arise because they draw different inferences
from the evidence that was admitted during the hearing. Because the judge of the juvenile court acted as
the factfinder during the hearing, it was that court’s
role to decide upon the inferences to draw from the
testimony, to decide what weight specific testimony
deserved, and to decide which witnesses it thought
were credible. City of Keller v. Wilson, 168 S.W.3d
802, 819 (Tex. 2005). When a judge is required to act
as the factfinder in a dispute, the judge may reasonably
decide to believe one witness and to disbelieve others.
McGalliard v. Kuhlmann, 722 S.W.2d 694, 697 (Tex.
1986). When required to act as the factfinder in a
hearing, the judge is also permitted to resolve any
inconsistencies in the evidence. Id. Thus, if the judge
could have reasonably inferred that the County acted

App.37a
diligently to investigate Middleton’s case before Collins
turned eighteen, and could reasonably infer that
despite the exercise of diligence the investigation that
occurred before Collins turned eighteen failed to develop sufficiently reliable evidence to allow the County
to develop probable cause to proceed with a case
proving that Collins had engaged in delinquent conduct,
an appeals court is not permitted to impose its own
opinions even if they might differ. See City of Keller,
168 S.W.3d at 819.
We note that both the civil standard of review
and the criminal standard of review generally do not
allow a reviewing court to substitute findings for those
of the lower court when the matter turned on disputed historical facts. See Romero v. State, 800 S.W.2d
539, 543 (Tex. Crim. App. 1990). As the factfinder,
the juvenile court judge was authorized to resolve
any disputed facts in reaching its conclusion that the
County conducted a diligent investigation into whether
Collins was guilty of delinquent conduct. See Moon,
451 S.W.3d at 46; see also Wiede v. State, 214 S.W.3d
17, 24-25 (Tex. Crim. App. 2007). Additionally, to the
extent the juvenile court judge resolved mixed
questions of law and fact regarding the elements the
County was required to prove to obtain a transfer,
the judge’s ruling is still required to be given almost
complete deference because the ruling depends in
part on the manner the judge resolved disputed
historical facts. See Wiede, 214 S.W.3d at 24 25. Consequently, our review is limited to determining whether
the juvenile court’s findings based on the testimony
admitted in the hearing were reasonable. See Amador
v. State, 221 S.W.3d 666, 673 (Tex. Crim. App. 2007)
(citing Guzman v. State, 955 S.W.2d 85, 89 (Tex.

App.38a
Crim. App. 1997)); see also State v. White, 306 S.W.3d
753, 757 n.10 (Tex. Crim. App. 2010) (citing Armendariz v. State, 123 S.W.3d 401, 404 (Tex. Crim. App.
2003)).
The testimony from the hearing addressed the
County’s efforts at investigating Middleton’s case, what
the County learned in the investigation and when it
learned it, why the County viewed the evidence that
it developed as unreliable to prove that Collins
engaged in delinquent conduct, and why the County
decided to dismiss the petition it filed after it charged
Collins with knowingly and intentionally causing
Middleton’s injuries. Given the conflicting inferences
that were available from the testimony, the juvenile
court’s determinations are given almost complete
deference because the juvenile court resolved a mixed
question of law and fact. See In re B.R.H., 426 S.W.3d
at 168.
In his brief, Collins criticizes the County for not
discovering the identity of some of the witnesses who
testified in his trial before he turned eighteen. However,
the officials charged with investigating a juvenile
case are not required “‘to do everything perceivable
and conceivable to avoid delay.’” In re B.C.B., No. 0516-00207-CV, 2016 Tex. App. LEXIS at *13 (quoting
In re N.M.P., 969 S.W.2d 95, 100 (Tex. App.—Amarillo
1998, no pet.)). Instead, the Juvenile Justice Code
simply requires the officials responsible for the investigation to exercise due diligence, a term that suggests
the investigation must be reasonable given the alleged
conduct of the juvenile in light of the information
that was gathered during the investigation. See Tex.
Fam. Code Ann. § 54.02(j)(4)(B).

App.39a
In our opinion, the juvenile court judge’s resolution
of whether the County established the various elements
it was required to establish to support its decision to
transfer the case to a district court was reasonable,
given the testimony admitted during the hearing. In
considering whether the County exercised diligence
in investigating the case, the trial court was entitled
to consider evidence showing that members of Collins’
family hindered the County’s investigation into the
role Collins played in causing Middleton’s injuries.
On this record, it was the prerogative of the juvenile
court to exercise its broad discretion as the factfinder
to find that the County established that it conducted
a diligent investigation of Middleton’s case, and to
find that the County reasonably explained why it
failed to proceed with a case against Collins before
Collins turned eighteen. See Moon, 451 S.W.3d at 47.
Next, we address Collins’ argument that the evidence admitted in the hearing was insufficient to
support the juvenile court’s finding that the State
discovered new evidence after Collins turned eighteen.
According to Collins, the evidence that the County
developed after re-opening Middleton’s case in 2011
should not reasonably be considered to have been
new evidence because the County could have discovered
the evidence had it diligently investigated Middleton’s
case before Collins turned eighteen. In response, the
State points to the following evidence to support the
juvenile court’s finding that it discovered new evidence
after Collins turned eighteen. First, the State points
to the testimony provided by Middleton’s sister, Heather
Middleton Richards, who testified during the hearing
that around 2009, Middleton told her that Collins
had sexually assaulted him. Second, the State points

App.40a
to the fact that in 2011, it discovered that Middleton
had given a deposition in a civil case that he filed
against Collins in 2011. In his deposition, Middleton
testified that Collins injured him in 1998 because he
wanted to prevent Middleton from telling others that
Collins had molested him. Third, the State points to
the testimony of Heather White, who testified that
Collins told her on the evening after Middleton was
injured that he set Middleton on fire to prevent
Middleton from telling anyone that Collins had
molested him.
In our opinion, the evidence admitted during the
hearing allowed the judge of the juvenile court to
find that the County did discover new evidence that
it had not discovered before Collins turned eighteen.
Additionally, the juvenile court judge could also
reasonably conclude that the newly discovered evidence
had not been discovered despite the County’s exercise
of due diligence. While the State was not required to
establish what motivated Collins to injure Middleton
to prove that he had engaged in delinquent conduct
in 1998 when he injured Middleton, the juvenile
court have reasonably believed that the County would
have viewed its chances of proceeding with a case
against Collins as sufficient to prove that he was
guilty of delinquent had it discovered the evidence of
motive before Collins turned eighteen. Additionally,
the juvenile court could have viewed Heather White’s
testimony about the statements Collins made to her
on the evening Middleton was injured as evidence
that would have significantly improved the County’s
case against Middleton, had the County discovered
the information she gave them before Collins turned
eighteen. We hold that the juvenile court had sufficient

App.41a
evidence before it to rationally conclude that the County
established each of the elements required to justify
granting the County’s motion to transfer Collins’
case from juvenile court to district court. See Tex.
Fam. Code Ann. § 54.02(j)(4).
Having decided that the evidence before the
juvenile court supports the findings required to justify
the court’s ruling, we must now determine whether
the juvenile court abused its discretion by granting
the County’s motion to transfer the case for trial in a
district court. Id. In evaluating the juvenile court’s
ruling, we are to determine whether the judge acted
without reference to any guiding rules or principles
when it granted the County’s motion to transfer. Id.
(citing In re J.R.C.S., 393 S.W.3d 903, 914 (Tex. App.—
El Paso 2012, no writ)). In this case, the record
shows that the judge of the juvenile court considered
the statutory requirements that are in section 54.02
(j), which includes the specific findings that Collins is
challenging in his appeal. When the testimony
admitted during the hearing on the motion to transfer is viewed in the light that favors the findings, the
findings the judge made and the judge’s inferences
from the evidence were reasonable given the evidence
that was admitted in the hearing. Moon, 451 S.W.3d
at 46 (“As long as the appellate court can determine
that the juvenile court’s judgment was based upon
facts that are supported by the record, it should
refrain from interfering with that judgment absent a
scenario in which the facts identified in the transfer
order, based on evidence produced at the transfer
hearing . . . bear no rational relation to the specific
reasons the order gives to justify [the lower court’s
conclusions.]”). The record also reflects that the

App.42a
evidence before the court in the hearing addressed
all of the factors relevant to motions to transfer
under the Juvenile Justice Code, and that the judge
of the juvenile court considered all of the conditions
that govern motions to transfer that are required
under section 54.02(j) of the Juvenile Justice Code.
We hold the judge of the juvenile court did not abuse
her discretion by granting the State’s motion to
transfer the proceedings to a district court. We overrule issue two.
Having carefully reviewed Collins’ issues and
his arguments, we affirm the trial court’s judgment.
AFFIRMED.
Hollis Horton
Justice
Submitted on February 12, 2016
Opinion Delivered March 29, 2017

App.43a
JUDGMENT OF THE COURT OF APPEALS
FOR THE NINTH DISTRICT OF TEXAS
(MARCH 29, 2017)
IN THE NINTH COURT OF APPEALS
________________________
DON WILBURN COLLINS,
v.
THE STATE OF TEXAS,
________________________
09-15-00089-CR
On Appeal from the 359th District Court
Montgomery County, Texas
Trial Cause No. 15-01-00728 CR
THE NINTH COURT OF APPEALS, having
considered this cause on appeal, concludes that the
judgment of the trial court should be affirmed. IT IS
THEREFORE ORDERED, in accordance with the
Court’s opinion, that the judgment of the trial court
is affirmed.
Opinion of the Court delivered by Justice Hollis
Horton
March 29, 2017
AFFIRMED

App.44a
**********
Copies of this judgment and the Court’s opinion
are certified for observance.
Carol Anne Harley
Clerk of the Court

App.45a
JUDGMENT OF CONVICTION BY JURY
(FEBRUARY 10, 2015)
IN THE 359TH DISTRICT COURT
MONTGOMERY COUNTY, TEXAS
________________________
THE STATE OF TEXAS
v.
DON WILBURN COLLINS
________________________
Case No. 15-01-00728–CR
Incident No./TRN: 9219063824
State ID No.: TX06173342
JUDGMENT OF CONVICTION BY JURY
Judge Presiding: HON. Kathleen A. Hamilton
Date Judgment Entered: February 10, 2015
Attorney for State: Kelly Blackburn
Attorney for Defendant: Tay Bond
Offense for which Defendant Convicted:
CAPITAL MURDER
Charging Instrument: Indictment
Statute for Offense: 19.03(a)(2)
Date of Offense: June 28, 1998
Degree of Offense: CAPITAL
Plea to Offense: Not Guilty

App.46a
Findings on Deadly Weapon: N/A
Verdict of Jury: GUILTY
Plea to Enhancement/Habitual Paragraphs: N/A
Findings on Enhancement/Habitual Paragraphs: N/A
Punishment Assessed by: Jury
Date Sentence Imposed: February 10, 2015
Date Sentence to Commence: February 10, 2015
Punishment and Place of Confinement:
40 years confinement in the Texas Department
of Criminal Justice, Institutional Division
This sentence to run concurrently.
Fine: $ 0.00
Court Costs: $ 574.00
Atty. Fees: Waived
Restitution: $ N/A
Restitution Payable to: N/A (see below)
Sex Offender Registration Requirements do not to
the Defendant.
TEX. CODE CRIM. PROC. chapter 62.
The age of the victim at the time of the offense was N/A.
If Defendant is to serve sentence in TDCJ enter total
incarceration time.
TOTAL: 707 days
Time Credited:
N/A Days

Notes: N/A

App.47a
If Defendant is to serve sentence in county mail
or is given credit toward fine and costs, enter
days credited below.
N/A DAYS
NOTES: N/A
All pertinent information, names and assessments
indicated above are incorporated into the language of
the judgment below by reference.
This cause was called for trial in Montgomery
County, Texas. The State appeared by her District
Attorney.
Counsel/ Waiver of Counsel (select one)
•

Defendant appeared in person with Counsel.

It appeared to the Court that Defendant was
mentally competent and had pleaded as shown above
to the charging instrument. Both parties announced
ready for trial. A jury was selected, impaneled, and
sworn. The Charging Instrument was read to the
jury, and Defendant entered a plea to the charged
offense. The Court received the plea and entered it of
record.
The jury heard the evidence submitted and argument of counsel. The Court charged the jury as to its
duty to determine the guilt or innocence of Defendant,
and the jury retired to consider the evidence. Upon
returning to open court, the jury delivered its verdict
in the presence of Defendant and defense counsel.
The Court received the verdict and ORDERED it
entered upon the minutes of the Court.

App.48a
Punishment Assessed by Jury / Court / No election
(select one)


Jury. Defendant entered a plea and filed a written
election to have the jury assess punishment. The
jury heard evidence relative to the question of
punishment. The Court charged the jury and it
retired to consider the question of punishment.
After due deliberation, the jury was brought into
Court, and, in open court, it returned its verdict
as indicated above.

The Court FINDS Defendant committed the above
offense and ORDERS, ADJUDGES AND DECREES
that Defendant is GUILTY of the above offense. The
Court FINDS the Presentence Investigation, if so
ordered, was done according to the applicable provisions of Tex. Code Crim. Proc. Art. 42.12. § 9.
The Court ORDERS Defendant punished as
indicated above. The Court ORDERS Defendant to pay
all fines, court costs, attorney fees, and restitution as
indicated above.
Punishment Options (select one)


Confinement in State Jail or Institutional Division.
The Court ORDERS the authorized agent of the
State of Texas or the Sheriff of this County to take,
safely convey, and deliver Defendant to the Texas
Department of Corrections. The Court ORDERS
Defendant to be confined for the period and in
the manner indicated above. The Court ORDERS
Defendant remanded to the custody of the Sheriff
of this county until the Sheriff can obey the
directions of this sentence. The Court ORDERS
that upon release from confinement, Defendant

App.49a
proceed immediately to the Montgomery County
District Clerk. Once there, the Court ORDERS
Defendant to pay, or make arrangements to pay,
any remaining unpaid fines, court costs, and
restitution as ordered by the Court above,
including $2.00 fee for each payment made
(pursuant to Article 102.072, T.C.C.P.).
Execution / Suspension of Sentence (select one)


The Court ORDERS Defendant’s sentence
EXECUTED.

The Court ORDERS that Defendant is given credit
noted above on this sentence for the time spent incarcerated.
Signed and entered on February 11, 2015.
/s/ Kathleen A. Hamilton
Judge Presiding
Clerk: /s/ Clerk Signature

App.50a
INDICTMENT
(JANUARY 22, 2015)
359TH DISTRICT COURT
________________________
THE STATE OF TEXAS
v.
DON WILBURN COLLINS
________________________
Cause No. 15-01-00728–CR
Count: #1
Charge: CAPITAL MURDER Sec. 19.03(a)(2); FC°
DA File #: 14-002159.1
Agency #: 98A009076
IN THE NAME AND BY AUTHORITY OF THE
STATE OF TEXAS:
THE GRAND JURY, for the County of Montgomery, State of Texas, duly selected, empaneled,
sworn, charged, and organized as such by the 418th
Judicial District Court for said County, upon their
oaths present in and to said court that Don Wilburn
Collins, the Defendant, on or about June 28, 1998,
and before the presentment of this indictment, in the
County and State aforesaid, did then and there
intentionally cause the death of an individual, namely,
Robert Middleton, by lighting him on fire, and the
Defendant was then and there in the course of commit-

App.51a
ting or attempting to commit the offense of Obstruction
or Retaliation of Robert Middleton,
Paragraph B
And the GRAND JURY further presents in and to
said Court that on or about June 28, 1998 in Montgomery County, Texas, Don Wilburn Collins, hereinafter
styled Defendant, did then and there intentionally
and knowingly cause the death of an individual, namely
Robert Middleton, by lighting Robert Middleton on fire,
Paragraph C
And the GRAND JURY further presents in and to
said Court that on or about June 28, 1998 in Montgomery County, Texas, Don Wilburn Collins, hereinafter
styled Defendant, did then and there, with intent to
cause serious bodily injury to Robert Middleton, an
individual, commit an act clearly dangerous to human
life, to wit: lighting Robert Middleton on fire, thereby
causing the death of Robert Middleton.
Paragraph D
And the GRAND JURY further presents in and to
said Court that on or about June 28, 1998 in Montgomery County, Texas, Don Wilburn Collins, hereinafter
styled Defendant, did then and there intentionally
and knowingly commit or attempt to commit a felony,
namely: Obstruction, or Retaliation, and in the course
of, in furtherance of, or in immediate flight from the
commission or attempted commission of the felony,
the Defendant did commit an act clearly dangerous to
human life, namely: lighting Robert Middleton on fire,
thereby causing the death of an individual, namely,
Robert Middleton,

App.52a
Against the Peace and Dignity of the State.
/s/ Foreman Signature
Foreman of the Grand Jury

App.53a
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
U.S. Const. art. I, § 9
The migration or importation of such persons as
any of the states now existing shall think proper
to admit, shall not be prohibited by the Congress
prior to the year one thousand eight hundred
and eight, but a tax or duty may be imposed on
such importation, not exceeding ten dollars for
each person.
The privilege of the writ of habeas corpus shall
not be suspended, unless when in cases of rebellion or invasion the public safety may require it.
No bill of attainder or ex post facto Law shall be
passed.
No capitation, or other direct, tax shall be laid,
unless in proportion to the census or enumeration herein before directed to be taken.
No tax or duty shall be laid on articles exported
from any state.
No preference shall be given by any regulation of
commerce or revenue to the ports of one state
over those of another: nor shall vessels bound to,
or from, one state, be obliged to enter, clear or
pay duties in another.
No money shall be drawn from the treasury, but
in consequence of appropriations made by law;
and a regular statement and account of receipts
and expenditures of all public money shall be
published from time to time.

App.54a
No title of nobility shall be granted by the United
States: and no person holding any office of profit
or trust under them, shall, without the consent
of the Congress, accept of any present, emolument,
office, or title, of any kind whatever, from any king,
prince, or foreign state.
Texas Family Code Legislation—74th Leg., ch. 262, § 34
Section 54.02, Family Code, is amended by
amending Subsections (a), (f), (g), (h), (i), and (j) and
adding Subsections (m) and (n) to read as follows:
(a) The juvenile court may waive its exclusive
original jurisdiction and transfer a child to the
appropriate district court or criminal district
court for criminal proceedings if:
(1) the child is alleged to have violated a penal
law of the grade of felony;
(2) the child was:
(A) 14 [15] years of age or older at the time he
is alleged to have committed the offense, if
the offense is a capital felony, an aggravated
controlled substance felony, or a felony of the
first degree, and no adjudication heating has
been conducted concerning that offense; or
(B) 15 years of age or older at the time the child
is alleged to have committed the offense, if
the offense is a felony of the second or third
degree or a state jail felony, and no adjudication hearing has been conducted concerning
that offense; and
(3) after a full investigation and a hearing, the
juvenile court determines that there is probable

App.55a
cause to believe that the child before the court
committed the offense alleged and that because
of the seriousness of the offense alleged or the
background of the child the welfare of the
community requires criminal proceedings.
(f)

In making the determination required by Subsection (a) of this section, the court shall consider, among other matters:
(1) whether the alleged offense was against person or property, with greater weight in favor of
transfer given to offenses against the person;
(2) [whether the alleged offense was committed
in an aggressive and premeditated manner;
[(3) whether there is evidence on which a grand
jury may be expected to return an indictment;
[(4)] the sophistication and maturity of the child;
(3) [(5)] the record and previous history of the
child; and
(4) [(6)] the prospects of adequate protection of
the public and the likelihood of the rehabilitation of the child by use of procedures, services,
and facilities currently available to the juvenile
court.

(g) If the petition alleges multiple offenses that constitute more than one criminal transaction, the
juvenile court shall either retain or transfer all
offenses relating to a single transaction. A
[juvenile court retains jurisdiction, the] child is
not subject to criminal prosecution at any time
for any offense arising out of a criminal transaction
for which the juvenile court retains jurisdiction

App.56a
[alleged in the petition or for any offense within
the knowledge of the juvenile court judge as
evidenced by anything in the record of the
proceedings].
(h) If the juvenile court waives jurisdiction, it shall
state specifically in the order its reasons for
waiver and certify its action, including the
written order and findings of the court, and shall
transfer the person [child] to the appropriate
court for criminal proceedings. On transfer of
the person [child] for criminal proceedings, the
person [he] shall be dealt with as an adult and
in accordance with the Code of Criminal Procedure.
The transfer of custody is an arrest. [The court
to which the child is transferred shall determine
if good cause exists for an examining trial. If
there is no good cause for an examining trial,
the court shall refer the case to the grand jury.
If there is good cause for an examining trial, the
court shall conduct an examining trial and may
remand the child to the jurisdiction of the
juvenile court,]
(i)

A waiver under this section is a waiver of jurisdiction over the child and the criminal court may
not remand the child to the jurisdiction of the
juvenile court. [If the child’s case is brought to
the attention of the grand jury and grand jury
does not indict for the offense charged in the
complaint forwarded by the juvenile court, the
district court or criminal district court shall
certify the grand jury’s failure to indict to the
juvenile court. On receipt of the certification, the
juvenile court may resume jurisdiction of the
case.]

App.57a
(j)

The juvenile court may waive its exclusive
original jurisdiction and transfer a person to the
appropriate district court or criminal district
court for criminal proceedings if:
(1) the person is 18 years of age or older;
(2) the person was:
(A) 14 [15] years of age or older and under 17
years of age at the time he is alleged to have
committed a capital felony, an aggravated
controlled substance felony, or a felony of
the first degree; or
(B) 15 years of age or older and under 17 years
of age at the time the person is alleged to
have committed a felony of the second or
third degree or a state jail felony;
(3) no adjudication concerning the alleged offense
has been made or no adjudication hearing concerning the offense has been conducted;
(4) the juvenile court finds from a preponderance
of the evidence that:
(A) for a reason beyond the control of the state
it was not practicable to proceed in juvenile
court before the 18th birthday of the person;
or
(B) after due diligence of the state it was not
practicable to proceed in juvenile court
before the 18th birthday of the person
because:
(i)

[(A)] the state did not have probable
cause to proceed in juvenile court and

App.58a
new evidence has been found since the
18th oirthday of the Person; [or]
(ii) [(B)]the person could not be found; or
(iii) a previous transfer order was reversed
by an appellate court or set aside by a
district court; and
(5) the juvenile court determines that there is
probable cause to believe that the child before
the court committed the offense alleged.
(m) Notwithstanding any other provision of this
section, the juvenile court shall waive its exclusive
original jurisdiction and transfer a child to the
appropriate district court or criminal court for
criminal proceedings if;
(1) the child has previously been transferred to a
district court or criminal district court for
criminal proceedings under this section, unless:
(A) the child was not indicted in the matter
transferred by the grand jury;
(B) the child was found not guilty in the matter
transferred;
(C) the matter transferred was dismissed with
prejudice; or
(D the child was convicted in the matter transferred, the conviction was reversed on
appeal, and the appeal is final; and
(2) the child is alleged to have violated a penal
law of the grade of felony.
(n) A mandatory transfer under Subsection (in) may
be made without conducting the study required

App.59a
in discretionary transfer proceedings by Subsection (d). The requirements of Subsection (b)
that the summons state that the purpose of the
hearing is to consider discretionary transfer to
criminal court does not apply to a transfer
proceeding under Subsection (m). In a proceeding
under Subsection (m), it is sufficient that the
summons provide fair notice that the purpose of
the hearing is to consider mandatory transfer to
criminal court.
Texas Family Code Legislation—76th Leg., ch. 1477, § 4
Section 4
Chapter 51, Family Code, is amended by adding
Section 51.20 to read as follows:
Sec. 51.20. PHYSICAL OR MENTAL EXAMINATION. (a) At any stage of the proceedings under
this title, the juvenile court may order a child who is
referred to the juvenile court or who is alleged by a
petition or found to have engaged in delinquent conduct or conduct indicating a need for supervision to
be examined by an appropriate expert, including a
physician, psychiatrist, or psychologist.
(b) If, after conducting an examination of a child
ordered under Subsection (a) and reviewing any
other relevant information, there is reason to
believe that the child has a mental illness or
mental retardation, the probation department
shall refer the child to the local mental health or
mental retardation authority for evaluation and
services, unless the prosecuting attorney has
filed a petition under Section 53.04.

App.60a
Section 5
Section 52.02(c), Family Code, is amended to
read as follows:
(c) A person who takes a child into custody and who
has reasonable grounds to believe that the child
has been operating a motor vehicle in a public
place while having any detectable amount of
alcohol in the child’s system may, before
complying with Subsection (a):
(1) take the child to a place to obtain a specimen
of the child’s breath or blood as provided by
Chapter 724, Transportation Code; and
(2) perform intoxilyzer processing and videotaping
of the child in an adult processing office of a law
enforcement agency [police department].
Section 6
Chapter 53, Family Code, is amended by adding
Section 53.035 to read as follows:
Sec. 53.035. GRAND JURY REFERRAL. (a) The
prosecuting attorney may, before filing a petition
under Section 53.04, refer an offense to a grand jury
in the county in which the offense is alleged to have
been committed.
(b) The grand jury has the same jurisdiction and
powers to investigate the facts and circumstances
concerning an offense referred to the grand jury
under this section as it has to investigate other
criminal activity.
(c) If the grand jury votes to take no action on an
offense referred to the grand jury under this
section, the prosecuting attorney may not file a

App.61a
petition under Section 53.04 concerning the
offense unless the same or a successor grand
jury approves the filing of the petition.
(d) If the grand jury votes for approval of the
prosecution, of an offense referred to the grand
jury under this section, the prosecuting attorney
may file a petition under Section 53.04.
(e) The approval of the prosecution of an offense by
a grand jury under this section does not constitute approval of a petition by a grand jury for
purposes of Section 53.045.
Section 7
Section 54.01, Family Code, is amended by
adding Subsection (p) to read as follows:
(p) If a child has not been released under Section
53.02 or this section and a petition has not been
filed under Section 53.04 concerning the child,
the court shall order the child released from
detention not later than:
(1) the 30th working day after the date the initial
detention hearing is held, if the child is alleged
to have engaged in conduct constituting a capital
felony, an aggravated controlled substance felony,
or a felony of the first degree; or
(2) the 15th working day after the date the initial
detention hearing is held, if the child is alleged
to have engaged in conduct constituting an
offense other than an offense listed in Subdivision (1).

App.62a
Section 8
Section 54.02, Family Code, is amended by amending Subsections (h) and (j) and adding Subsections
(o)-(r) to read as follows:
(h) If the juvenile court waives jurisdiction, it shall
state specifically in the order its reasons for waiver
and certify its action, including the written
order and findings of the court, and shall transfer the person to the appropriate court for
criminal proceedings and cause the results of
the diagnostic study of the person ordered under
Subsection (d), including psychological information, to be transferred to the appropriate criminal
prosecutor. On transfer of the person for criminal
proceedings, the person shall be dealt with as an
adult and in accordance with the Code of Criminal
Procedure. The transfer of custody is an arrest.
(j)

The juvenile court may waive its exclusive original
jurisdiction and transfer a person to the appropriate district court or criminal district court for
criminal proceedings if:
(1) the person is 18 years of age or older;
(2) the person was:
(A) 10 years of age or older and under 17 years
of age at the time the person is alleged to
have committed a capital felony or an
offense under Section 19.02, Penal Code;
(B) 14 years of age or older and under 17 years
of age at the time the person [he] is alleged to
have committed [a capital felony,] an aggravated controlled substance felony[,] or a felony

App.63a
of the first degree other than an offense
under Section 19,02, Penal Code; or
(C) [(B)]15 years of age or older and under 17
years of age at the time the person is alleged
to have committed a felony of the second or
third degree or a stato jail felony;
(3) no adjudication concerning the alleged offense
has been made or no adjudication hearing concerning the offense has been conducted;
(4) the juvenile court finds from a preponderance
of the evidence that:
(A) for a reason beyond the control of the state
it was not practicable to proceed in juvenile
court before the 18th birthday of the person;
or
(B) after due diligence of the state it was not
practicable to proceed in juvenile court before
the 18th birthday of the person because:
(i)

the state did not have probable cause to
proceed in juvenile court and new evidence has been found since the 18th
birthday of the person;

(ii) the person could not be found; or
(iii) a previous transfer order was reversed
by an appellate court or set aside by a
district court; and
(5) the juvenile court determines that there is
probable cause to believe that the child before
the court committed the offense alleged.
(o) If a respondent is taken into custody for possible
discretionary transfer proceedings under Sub-

App.64a
section (j), the juvenile court shall hold a detention
hearing in the same manner as provided by
Section 54.01, except that the court shall order
the respondent released unless it finds that the
respondent:
(1) is likely to abscond or be removed from the
jurisdiction of the court;
(2) may be dangerous to himself or herself or
may threaten the safety of the public if released;
or
(3) has previously been found to be a delinquent
child or has previously been convicted of a penal
offense punishable by a term of jail or prison
and is likely to commit an offense if released.
(p) If the juvenile court does not order a respondent
released under Subsection (o), the court shall,
pending the conclusion of the discretionary transfer
hearing, order that the respondent be detained
in:
(1) a certified juvenile detention facility as provided
by Subsection (q); or
(2) an appropriate county facility for the detention
of adults accused of criminal offenses.
(q) The detention of a respondent in a certified
juvenile detention facility must comply with the
detention requirements under this title, except
that, to the extent practicable, the person shall
be kept separate from children detained in the
same facility.
(r)

If the juvenile court orders a respondent detained
in a county facility under Subsection (p), the

App.65a
county sheriff shall take custody of the respondent
under the juvenile court’s order. The juvenile
court shall set or deny bond for the respondent
as required by the Code of Criminal Procedure
and other law applicable to the pretrial detention
of adults accused of criminal offenses.
Texas Family Code Legislation—
76th Leg., ch. 1477, § 35
Sections 141.086(g), (h), (i), (j), and (k), Human
Resources Code, are amended to read as follows:
(g) For a facility constructed under this section, [the
following amounts may be appropriated;
Asdf
[(1) not more than 50 percent of the operating
costs of the facility during the 1997 fiscal year;
and
[(2)] not more than 25 percent of the operating
costs of the facility may be reimbursed by the
commission [during each of the 1998 and 1999
fiscal years].
(h) It is the intent of the legislature to appropriate
the full amount of money authorized under Subsection (g)[(2)].
(i)

[On and after September 1, 1999, a facility constructed under this section must be operated
entirely by the county using the facility.

[(j)] The commission shall conduct an annual audit of
the operating costs for a fiscal year of a facility
constructed under this section for each fiscal
year for which funds are appropriated unless the
county in which the facility is located has con-

App.66a
ducted an annual audit [through fiscal year
1999]. The commission shall submit a report on the
results of its or the county’s [the] audit to the
Legislative Budget Board and the governor not
later than the 60th day after the last day of the
fiscal year covered by the audit.
(j)

[(k)] In this section, “operating costs” means the
operating costs of a facility at an 80-percent
occupancy rate.
Section 36

Section 729.001(c), Transportation Code, is
amended to read as follows:
(c) An offense under this section is punishable by
the fine or other sanction, other than confinement
or imprisonment, authorized by statute for
violation of the traffic law listed under Subsection
(a) that is the basis of the prosecution under this
section [a Class C misdemeanor].
Section 37
Section 729.002(b), Transportation Code, is
amended to read as follows:
(b) An offense under this section is punishable in
the same manner as if the person was .17 years
of age or older and operated a motor vehicle
without a license as described by Subsection (a),
except that an offense under this section is not
punishable by confinement or imprisonment [a
Class C misdemeanor].

App.67a
Section 38
Sections 141.0475 and
Resources Code, are repealed.

141.0476,

Human

Section 39
(a) Except as provided otherwise by this section, the
change in law made by this Act applies only to
conduct that occurs on or after the effective date
of this Act. Conduct violating a penal law of the
state occurs on or after the effective date of this
Act if every element of the violation occurs on or
after that date. Conduct that occurs before the
effective date of this Act is covered by the law in
effect at the time the conduct occurred, and the
former law is continued in effect for that purpose.
(b) The change in law made by Sections 16, 18, and
19 of this Act applies to the dissemination or
inspection of information on or after the effective
date of this Act without regard to whether the
information was compiled before, on, or after
that date.
(c) The change in law made by Section 26 of this
Act applies only to a report received by a local
law enforcement agency or the Texas Juvenile
Probation Commission on or after the effective
date of this Act.
(d) The change in law made by Section 8 of this Act
applies to discretionary transfer proceedings in
which the discretionary transfer petition or motion
was filed on after the effective date of this Act.

App.68a
Section 40
The change in law made by Section 25.0011, Education Code, as added by this Act, applies beginning
with the 1999-2000 school year.
Section 41
This Act takes effect September 1, 1999.
Section 42
The importance of this legislation and the crowded
condition of the calendars in both houses create an
emergency and an imperative public necessity that
the constitutional rule requiring bills to be read on
three several days in each house be suspended, and
this rule is hereby suspended.
Texas Government Code Sec. 311.015
Reference to a Series.
If a statute refers to a series of numbers or
letters, the first and last numbers or letters are
included.
Acts 1985, 69th Leg., ch. 479, Sec. 1, eff. Sept. 1, 1985.
Texas Government Code Sec. 311.016.
“MAY,” “SHALL,” “MUST,” Etc.
The following constructions apply unless the
context in which the word or phrase appears
necessarily requires a different construction or
unless a different construction is expressly
provided by statute:
(1) “May” creates discretionary authority or
grants permission or a power.

App.69a
(2) “Shall” imposes a duty.
(3) “Must” creates or recognizes a condition
precedent.
(4) “Is entitled to” creates or recognizes a right.
(5) “May not” imposes a prohibition and is
synonymous with “shall not.”
(6) “Is not entitled to” negates a right.
(7) “Is not required to” negates a duty or condition
precedent.
Added by Acts 1997, 75th Leg., ch. 220, Sec. 1, eff.
May 23, 1997.
Texas Government Code Sec. 311.021.
Intention in Enactment of Statutes.
In enacting a statute, it is presumed that:
(1) compliance with the constitutions of this state
and the United States is intended;
(2) the entire statute is intended to be effective;
(3) a just and reasonable result is intended;
(4) a result feasible of execution is intended;
and
(5) public interest is favored over any private
interest.
Acts 1985, 69th Leg., ch. 479, Sec. 1, eff. Sept. 1, 1985.

App.70a
Texas Government Code Sec. 311.022.
Prospective Operation of Statutes.
A statute is presumed to be prospective in its
operation unless expressly made retrospective.
Acts 1985, 69th Leg., ch. 479, Sec. 1, eff. Sept. 1, 1985.

